HHS/OIG, Audit -"Review of Outpatient Cardiac Services At The Manchester Memorial Hospital,"(A-01-03-00506)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Services At The Manchester Memorial Hospital," (A-01-03-00506)
September 29, 2003
Complete
Text of Report is available in PDF format (398 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed the Manchester Memorial Hospital  (Hospital)
for outpatient cardiac rehabilitation services.  We found that the Hospital relies upon physicians working nearby
in the Hospital and in its emergency department for physician supervision coverage of its outpatient cardiac rehabilitation
program.  However, medical record documentation we examined showed little evidence that a physician personally sees
a patient periodically throughout the program.  In addition, we reviewed a sample of 10 Medicare beneficiaries who
received outpatient cardiac rehabilitation services during calendar year 2001.  We found that medical and billing
records provided by the Hospital in support of two beneficiaries receiving cardiac rehabilitation services totaling $318
did not always support the diagnoses used to establish the patients’ eligibility for cardiac rehabilitation.  Further,
we found that the Hospital did not always follow the Medicare fiscal intermediary’s (FI) coding guidelines for submission
of a Medicare claim for outpatient cardiac rehabilitation services.  We recommended that the Hospital work with the
FI to ensure that the Hospital’s outpatient cardiac rehabilitation program is being conducted in accordance with Medicare
coverage and billing requirements.  The Hospital generally agreed with our recommendations.